      Department of Homeland Security




   Use of American Recovery and Reinvestment
    Act Funds by the U.S. Coast Guard for the
           Alteration of Bridges Program




            American Recovery and Reinvestment Act of 2009



OIG-12-09                                                    November 2011

                                                          Office of Inspector General

                                                          U.S. Department of Homeland Security
                                                          Washington, DC 20528




                                 November 18, 2011

MEMORANDUM FOR:	             Rear Admiral Stephen P. Metruck
                             Assistant Commandant for Resources,
                              Chief Financial Officer

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:	                    Use of American Recovery and Reinvestment Act Funds by
                             the U.S. Coast Guard for the Alteration of Bridges
                             Program

Attached for your information is our final letter report, Use of American Recovery and 

Reinvestment Act Funds by the U.S. Coast Guard for the Alteration of Bridges Program. 

We incorporated your formal comments in the final report.


We determined that the U.S. Coast Guard was administering American Recovery and 

Reinvestment Act funds for the Alteration of Bridges program according to program plans 

and requirements. The report contains no recommendations. Therefore, no further 

response to the Office of Inspector General regarding this report is required.


Consistent with our responsibility under the Inspector General Act, we are providing

copies of our report to appropriate congressional committees with oversight and 

appropriation responsibility over the Department of Homeland Security. The report will 

be posted on our website.


Should you have any questions, please call me, or your staff may contact 

John E. McCoy II, Deputy Assistant Inspector General for Audits, at (202) 254-4100. 

Background
The American Recovery and Reinvestment Act of 2009 (Recovery Act) appropriated to
the Department of Homeland Security (DHS) $2.75 billion for, among other purposes,
preserving and stimulating economic growth in the United States. Of that amount, the
U.S. Coast Guard (USCG) received $240 million, of which $142 million was for
alteration or removal of obstructive bridges, as authorized by section 6 of the Truman-
Hobbs Act (T-H Act). The Recovery Act stipulated that USCG “shall award the funds to
those bridges that are ready to proceed to construction” and that funds remain available
for obligation until September 30, 2010.

Section 3 of the T-H Act authorizes bridges to be altered if such alteration is “necessary
in order to render navigation through or under [said bridge] reasonably free, easy, and
unobstructed.” The act also requires that the alteration “be reasonably necessary for the
purposes of navigation.” The act provides for federal funding to alter lawfully
constructed railroad or publicly owned bridges that allowed for the reasonable needs of
navigation at the time of construction, but no longer do so because the character of
navigation has changed. Under the T-H Act, USCG issues an Order to Alter to owners of
bridges that are unreasonable obstructions to navigation. According to Title 33 U.S.
Code, Section 516, USCG pays the U.S. government’s share of the costs necessary for
the bridge owner to comply with the order. The government’s share is based on an
“apportionment of cost” calculation and requires the bridge owner to fund such “part of
the cost as is attributable to the direct and special benefits which will accrue to the bridge
owner as a result of the alteration.”

Typically, Congress appropriates federal funds for the Alteration of Bridges Program
under the T-H Act each year with the stipulation that the funds will remain available until
expended. USCG will authorize the design of a project, but normally will not authorize
the award of a construction contract by the bridge owner until Congress has appropriated
sufficient funds to complete the project. The amounts appropriated in a single year have
not been large enough to fund any one construction project.

To help federal agencies manage Recovery Act funds, the Office of Management and
Budget issued Memorandum M-09-15, Updated Implementing Guidance for the
American Recovery and Reinvestment Act of 2009. The memorandum requires federal
agencies to submit plans for each program funded by the Recovery Act. The plan must
include information on goals and objectives of the program; kinds and scope of activities
to be performed; delivery schedule; measures of program outputs, outcomes, and
efficiency; and program monitoring processes. DHS issued its “Alteration of Bridges
Expenditure Plan” on April 3, 2009. USCG subsequently issued its “Alteration of
Bridges Program-Specific Recovery Act Plan” on May 14, 2009. Finally, USCG
provided DHS with an updated expenditure plan on March 16, 2010.




                                            Page 1
Results of Review
USCG is administering the Recovery Act Alteration of Bridges program according to
plans and requirements. USCG’s status report to DHS shows outlays to bridge owners of
approximately $107.6 million, or 75.8% of Recovery Act Alteration of Bridges funds, as
of June 30, 2011. For the quarter ending June 30, 2011, bridge owners reported funding
202.61 jobs with Recovery Act funds.

Alteration of Bridges Project Awards and Status

USCG obligated the $142 million to the four Recovery Act bridge alteration projects by
September 30, 2010.1 USCG selected the four projects because they were construction
ready and because adding Recovery Act funds to previous T-H Act project appropriations
of $129.2 million provided sufficient funds to complete the projects. Table 1 lists the
projects and funding.

              Table 1. Funding of Recovery Act Alteration of Bridges Projects
                                                                     Federal Share of Project
                                                     Recovery Act            Previous
            Bridge Project             State            Funds             Appropriations       Total Funds
    Burlington Bridge                  Iowa           $36,445,756           $26,778,889        $63,224,645
    Elgin, Joliet & Eastern Bridge    Illinois         30,037,955            16,949,117         46,987,072
    Mobile Bridge                    Alabama           14,614,808            53,094,541         67,709,349
    Galveston Causeway Bridge          Texas           60,901,481            32,357,375         93,258,856
    Total                                            $142,000,000         $129,179,922        $271,179,922

The Alteration of Bridges program’s latest spending plan forecasts that the Recovery Act
funds will be expended by March 31, 2012. Table 2 lists Recovery Act obligations,
outlays, jobs, and the percentage of projects completed.

                       Table 2. Bridge Project Status as of June 30, 2011
                                             Recovery Act Funds                               Percentage of
            Bridge Project               Obligation        Outlays               Jobs*      Project Completed
    Burlington Bridge                     $36,445,756      $36,445,756               .10            94
    Elgin, Joliet & Eastern Bridge         30,037,955       29,472,286            64.40             80
    Mobile Bridge                          14,614,808       14,614,808             0.00             77
    Galveston Causeway Bridge              60,901,481       27,051,243           138.11             38
    Total                                $142,000,000     $107,584,093           202.61

    *
     Represents jobs reported by recipients for the quarter ending June 30, 2011.




1
  USCG does not deliver funds to the bridge owner via a federal contract, grant, or loan. Instead, USCG
reimburses the bridge owner based on an agreed-upon allocation of project costs. Bridge owners bear the
costs of any alterations or modifications included in alteration plans that are for their direct or special benefit.

                                                       Page 2
Management Comments and OIG Analysis
We obtained written comments on a draft of the report from the Assistant Commandant
for Resources, Chief Financial Officer. USCG agreed with our report and did not have
any additional comments. We have included a copy of USCG’s response in appendix A.




                                        Page 3
Appendix A
Purpose, Scope, and Methodology

Our objective was to determine (1) whether USCG was administering Recovery Act
funds for the Alteration of Bridges program according to program plans and requirements
and (2) the status of the program funds and projects. To address our objective, we—

       Reviewed applicable laws, regulations, and USCG’s policies, procedures, and
       internal directives used to administer and monitor the Alteration of Bridges
       program;
       Interviewed USCG officials and Alteration of Bridges program staff to obtain
       information on the administration, management, and oversight of the Recovery
       Act bridge alteration projects;
       Reviewed project files for two of the four Recovery Act bridge alteration projects;
       and
       Reviewed USCG monitoring of project performance and recipient reporting to
       determine compliance with program guidelines and requirements.

We conducted this audit from January through June 2011 in Washington, DC, pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objectives. We believe that the evidence
obtained provides a reasonable basis for the findings and conclusions based upon our
audit objectives.

We appreciate the efforts by USCG management and staff to provide the information and
access necessary to accomplish this review.




                                          Page 4
Appendix B
Management Comments to the Draft Letter Report




       U.S. Departmento~.
       Homeland Security
                                               ColTllTUllldanl
                                               United States Coast Guald
                                                                                      2100 Second Sueet, S.W.• Stop 7245
                                                                                      Washington, DC 20593
                                                                                      Staff Symbol :CG-8ll
                                                                                      Phone: (202) 372·3533
       United States                                                                  F",,: (202) 372-2311
       Coast Guard
                                                                                      7501
                                                                                      SfP -1 2011


       From:                                                               Reply to    Audit Manager,
                                                                           Attn of:    Mark Kulwicki
                                                                                       (202) 372-3533
       To:     Anne L. Ric ards
               Assistant Inspector General for Audits
       Subj:   DHS OIG REPORT ON USE OF AMERICAN RECOVERY AND REINVESTMENT
               ACT FUNDS BY THE U.S. COAST GUARD FOR THE ALTERATION OF
               BRIDGES PROGRAM
       Ref:    (a) DHS OIG Draft Report dated August 2, 2011

       1. Thank you for the opportunity to review and comment on Department of Homeland Security
       (DHS) Office of Inspector General's (lOG's) Draft Report 11-062-AUD-DHS entitled, "Use of
       American Recovery and Reinvestment Act Funds by the U.S. Coast Guard for the Alteration of
       Bridges Program."

       2. The United States Coast Guard (USCG) appreciates the efforts of the OIG to document
       current administering of four alterations of bridge projects supported by the American Recovery
       and Reinvestment Act funds.

       3. The USCG agrees with the findings of the report and has no comments.

       4. If you have any questions, my point of contact is Mr. Mark Kulwicki who can be reached at
       (202) 372-3533.

                                                            #

       Copy: Roger LaRouche, Director,
             Jerome Fiely, Audit Manager
             Shawn Cosman, Auditor




                                     Page 5

Appendix C
Major Contributors to this Report


                    Roger LaRouche, Director
                    Jerome Fiely, Audit Manager
                    Shawn Cosman, Auditor
                    Gloria Medina-Ortiz, Referencer




                                      Page 6
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      DHS Component Liaison, USCG
                      Departmental Recovery Act Coordinator

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                          Page 7
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
